STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

October 28, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Trump, et al. v. New York, et al., No. 20-366
Dear Mr. Harris:
In accordance with Supreme Court Rule 37.3(a), the government appellees
hereby provide their blanket consent to the filing of amicus curiae briefs in
support of either or neither party in this case.
Thank you for your kind assistance.
Respectfully submitted,
Barbara D. Underwood
Counsel of Record for
Government Appellees

cc: See attached service list

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

SERVICE LIST: No. 20-366, Donald J. Trump, et al. v. New York, et al.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Dale E. Ho
Director, Voting Rights Project
American Civil Liberties Union
125 Broad Street
New York, NY 10004
dale.ho@aclu.org

2

